<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2009

                              ----------                              


                       WEDNESDAY, APRIL 16, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2 p.m., in room SD-124 Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Shelby, and Stevens.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF HON. ROBERT S. MUELLER III, DIRECTOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. The Commerce, Justice, Science 
Subcommittee will come to order.
    There are many hearings going on right now. I know the 
hearing on the supplemental is wrapping up and we have a vote 
at 2:15. So, I know Senator Shelby is on his way, Director 
Mueller.
    I want to exercise the prerogative of the Chair and give my 
opening statement. By that time Senator Shelby will be here. We 
hope to hear your testimony, then we'll recess and then come 
back for questions and answers. But I think that there are five 
hearings on appropriations going on simultaneously. Here he is.
    Good afternoon, and welcome. Today, the Commerce, Justice, 
Science Subcommittee will hear from Director Robert Mueller, 
the head of the Federal Bureau of Investigation (FBI), for its 
budget priorities for fiscal year 2009. We've had a very 
productive relationship with Director Mueller and his team and 
he can count on us to work with him.
    We regard this year as a year of transition. This time next 
year, we will have a new President and whatever we do with this 
year's budget for the FBI will be the operating budget for that 
President's first term.
    I want to make sure the FBI has the right resources to 
fulfill its mission, to fight terrorists, violent criminals, 
cyber crooks, and also predators on our children.
    The FBI has so many multiple roles, it truly is not J. 
Edgar Hoover's FBI anymore, and it isn't even Judge Webster's 
FBI anymore. It is a new modern FBI with multiple 
responsibilities, both as an intelligence and law enforcement 
agency, responsible for keeping 300 million people safe from 
terrorists, as well as, criminals.
    The President's budget request is $7.1 billion, a $450 
million increase above the 2008 passed omnibus. This will be a 
7 percent increase and it should help with funding for more 
special agents and more intelligence analysts.
    While we work to get the FBI the right resources, we also 
have to make sure that we have the best management practices. 
We know the FBI is hiring to meet our Nation's needs and we 
want to discuss with him the issues related to recruitment, 
retention, and training.
    In the area of counterterrorism, most increases in the FBI 
budget are in this category. We all agree this is a top 
priority. For counterterrorism, the budget proposes $3 billion, 
a $234 million increase above the 2008 omnibus. 
Counterterrorism is now 40 percent of the FBI's budget. This 
has been quite a transformation in the last 5 years.
    For intelligence, the budget proposes $1.4 billion, a $208 
million increase over 2008 and an 18 percent increase. I'm 
pleased that the FBI proposes major investments in intelligence 
gathering, fighting cyber crime, dealing with these issues 
related to weapons of mass destruction and improvised explosive 
devices (IEDs).
    At the same time, we need to know how the FBI is improving 
its management and oversight of critical intel tools. We know 
that the inspector general has raised flashing yellow lights 
about national security letters and to be sure that they are 
sent and used appropriately, the terrorist watch list, when you 
get on, how soon does it take to get the bad guy on it, and how 
soon does it take a good guy off of it inadvertently placed 
there, and also we're concerned that the FBI wiretap bill was 
unpaid. We cannot miss a ring on that number. The FBI must 
improve its accuracy and protect our privacy.
    Then we go to the crime budget. There is a surge in crime 
in the United States of America and we need our FBI. We are 
very concerned that over the years, funding for the FBI in the 
terrorist area was taken at the expense of crime.
    This year, the request is $2.3 billion for the FBI's 
traditional crime-fighting efforts, a $105 million increase 
over the 2008 omnibus level, but the budget has no new funds 
for the surge in violent crime, the additional surge 
responsibility of investigating the mortgage fraud disclosures 
which I know the chairman's an expert in, and also continuing 
our efforts to deal with a rising crime against children, the 
child predator issues from those who stalk children in our 
communities to the growing international child pornography 
rings.
    Since September 11th, the FBI has shifted 2,000 agents from 
violent crime to counterterrorism work. Local law enforcements 
taken up this slack. They're stretched to the limit. So, if 
we're going to have a surge of help in Baghdad, we need a surge 
of help in Baltimore.
    We support the idea of the joint Federal-State task forces. 
We have seen the work, the excellent work the FBI has done with 
these joint Federal-State task forces in fighting violent 
gangs, drug dealers, and child predators.
    If we can put $5 billion into the Iraqi police force, we 
can put more money into our FBI. Given all the FBI's important 
roles and responsibilities, we want to be sure that they have 
the right resources, that they are able to hire and keep the 
right people and that they have the modern technology that we 
need to fight these new techno-threats against the United 
States.
    We want to very much hear the Director's priorities and to 
work with him in a spirit of bipartisan partnership to keep 
America as safe as we can by having a strong FBI and we're 
going to be smarter in the way we work with you and fund this 
in order to get the job done.
    I now turn to Senator Shelby for any comments he has to 
make.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chairwoman. Before I begin 
my opening statement, I would want to take a moment to commend 
the chairwoman for her fiery comments to the OMB Director in 
the supplemental hearing that took place moments ago.
    Senator Mikulski, I stand with you in the fight to increase 
State and local funding in the supplemental and thank you for 
being the leader in this effort.
    Director Mueller, thank you for joining us today. We had a 
nice meeting in my office yesterday to discuss the Federal 
Bureau of Investigation's 2009 budget request.
    I want to begin by thanking the men and women of the FBI 
who work every day to protect the Nation. We're all indebted to 
them for the sacrifices they make to protect us.
    Since your arrival as the sixth Director of the FBI, 
Congress has tasked the FBI, Mr. Director, with more 
responsibility than any other Federal law enforcement agency 
resulting in more challenges and changes than ever before. No 
one knows this more than you.
    The FBI is the Nation's premier law enforcement, 
counterterrorism, and counterintelligence agency. The Bureau's 
missions include fighting terrorism, foreign intelligence 
operations, cyber crime, public corruption, white collar crime, 
and violent crime.
    The FBI request for 2009 is $7.1 billion. This is a $448 
million increase over the 2008 omnibus funding level. While 
this represents an increase, the FBI has a $56 million 
shortfall in the 2009 budget request.
    The bottom line may have increased but funding for the core 
missions and the responsibility has not. This hole in the 
budget increases the pressure on the FBI to do more with less.
    Based on my review of your request, Mr. Director, combined 
with the likely fiscal constraints of this subcommittee, we 
will need your assistance as we face tough funding decisions. 
This subcommittee and the Bureau share the difficult task of 
targeting these limited resources in a manner that safeguards 
taxpayer dollars while preserving public safety.
    I want to re-emphasize the chairwoman's point that since 9/
11, the FBI has shifted 2,000 agents from violent crime into 
counterterrorism and while this shift was necessary, it has 
created a huge burden on our State and local enforcement 
agents.
    This budget abandons our State and local law enforcement 
officials and cuts at all the grants that would have helped 
them to meet our most critical needs. We will work with you, 
Mr. Director, to ensure that we provide the FBI with the 
resources necessary to assist these critical partners in our 
fight against crime.
    Director Mueller, Congress has provided nearly $100 million 
for the FBI's render safe mission for critical equipment and 
air assets to counter the explosive devices in the United 
States. The FBI's render safe mission requires the FBI to have 
the capability to access, diagnose, and render safe chemical, 
biological, radiological, or nuclear devices within the United 
States and its territories.
    The FBI's responsible for all render safe operations 
involving weapons of mass destruction in the National Capital 
Region. It has been approximately 1 year since the chairwoman 
and I worked with you in good faith to provide the FBI with the 
funding needed for this mission.
    I understand as of today, the Office of Management and 
Budget (OMB) has still not released $38 million in funding 
appropriated in last year's war supplemental necessary for the 
Bureau to perform its critical weapons of mass destruction 
(WMD) and render safe missions. The availability of that 
funding expires in less than 6 months, September 30, 2008.
    I look forward to hearing your plans on how the FBI will be 
fully obligating these funds prior to their expiration.
    Currently, the FBI has on-call assets from other agencies. 
These same on-call assets are also responsible for conducting 
other critical missions. If these assets are not designated for 
both the U.S. Government and the FBI, how will the FBI use them 
to carry out a render safe response during a crisis? These 
assets could be double-booked.
    The FBI's Hazardous Device School, HDS, is a crown jewel of 
the Federal Government's effort to provide training to Federal, 
State, and local bomb technicians. In partnership with the 
Army, this facility has trained more than 20,000 bomb 
technicians. That is a proven record of success.
    A November 2007 Congressional Research Service (CRS) report 
stated that IEDs, roadside bombs, and suicide car bombs caused 
70 percent of all American combat casualties in Iraq and 50 
percent of all combat casualties in Afghanistan. The report 
also notes that ``there's a growing concern that IEDs might 
eventually be used by insurgents and terrorists worldwide, 
including in this country.''
    The administration's most recent homeland security strategy 
recognizes the potential threat of IEDs being used by 
terrorists here. IEDs are clearly a threat. We need to 
understand and prepare for them. We cannot afford to be 
complacent and pretend that it cannot happen here.
    The question is will we be prepared when they arrive? There 
has been more than 13,000 IED and evidentiary submissions from 
Iraq and Afghanistan in 2007. These submissions cause backlogs 
that require Federal, State, and local law enforcement to wait 
an average of 200 plus days to receive the results of forensic 
examinations from the FBI lab.
    We need to make sure that the FBI and its lab have the 
resources it needs to handle not just the influx of work 
associated with the war on terrorism but also provide timely 
forensic assistance to law enforcement. We must ensure that the 
Terrorist Explosive Device Analytical Center has the forensic 
and technical capabilities it needs to support its critical 
mission of countering the IED threat from terrorists without 
denying those same services to others who depend on the FBI for 
lab support.
    This threat, I believe, is not going to diminish. There are 
many other issues, Mr. Director, I'd like to discuss, including 
national security letters, critical rebuilding of the FBI 
Academy and the use of resources with the FBI's priority 
missions, and I look forward to your thoughts on these issues 
and many others.
    Thank you for joining us.
    Senator Mikulski. Thank you, Senator Shelby, and again 
Director Mueller, we just want to assure you we're going to 
move on your budget in a bipartisan way. Our thoughts are 
identical on this, but why don't you go ahead with your 
testimony?

                STATEMENT OF HON. ROBERT S. MUELLER III

    Mr. Mueller. Thank you, Madam Chairwoman, and Senator 
Shelby. Thank you for having me here today to discuss the 
issues relating to our 2009 budget request.
    I did submit a longer statement. I would hope that it would 
be made part of the record.
    As you are aware, the FBI's top three priorities are 
counterterrorism, counterintelligence, and cyber security. 
These priorities are critical to our national security and to 
the FBI's vital work as a committed member of the intelligence 
community.
    Also important are our efforts to protect our communities 
from the very real threat of crime, especially violent crime. 
In the counterterrorism arena, al-Qaeda and related groups 
continue to present a critical threat to the homeland, so do 
self-radicalized homegrown extremists and they are difficult to 
detect, often using the Internet to train and operate.
    At home, through our domestic joint terrorism task forces 
and abroad with our legal attaches and our international 
partners, we together share real-time intelligence to fight 
these terrorists and their supporters.
    An important aspect of the fight against terrorists is the 
threat of weapons of mass destruction and the FBI's commitment 
to our render safe mission to prevent, prepare for, and respond 
to the threat of a WMD in the United States.
    We appreciate the resources that you have provided for this 
endeavor and with your ongoing support, we will continue to 
work on this critical issue. I'm looking forward to discussing 
the funding in support of that particular initiative.
    Another important effort is the work of the Terrorist 
Explosive Device Analytical Center, the TEDAC as it is called, 
as was pointed out by Senator Shelby. This center was 
established as an interagency laboratory for analyzing 
explosive devices used by terrorists worldwide and it does use 
the most contemporary forensics techniques available to do so, 
providing that information to our troops on the ground in Iraq, 
Afghanistan, and elsewhere.
    With regard to the counterintelligence threat, protecting 
our Nation's most sensitive secrets from hostile intelligence 
services or others who would do us harm is also at the core of 
the FBI mission.
    In furtherance of this priority, we reach out to businesses 
and universities. We join forces with our intelligence 
community partners and we work closely with the military to 
help safeguard our country's secrets.
    As was pointed out by you, Madam Chairwoman, cyber threats 
to our national security and the intersection between cyber 
crime, terrorism, and counterintelligence is increasingly 
evident.
    Today, the FBI's cyber investigators focus on these threats 
and we partner with Government and industry. One way we do so 
is through our sponsorship of a program called Infraguard, an 
alliance of more than 23,000 individual and corporate members 
to help identify and prevent cyber attacks.
    We have also asked for your specific support of our efforts 
in connection with the comprehensive national cyber security 
initiative. The FBI's unique position as both an intelligence 
and law enforcement agency allows us to rapidly respond to 
cyber events at U.S. Government agencies, military 
installations, and within the broader private sector.
    I am mindful of your ongoing interest in the FBI's progress 
in building an intelligence program while combating these 
threats. The FBI has made a number of changes in the last 
several years to enhance our capabilities.
    Today's intelligence is woven throughout every FBI program 
and operation. By utilizing this intelligence, we have 
successfully broken up terrorist plots across the country, from 
Portland, Oregon; Lackawanna, New York; Torrance, California; 
Chicago, Illinois, to the more recent Fort Dix, and JFK plots.
    We have increased and enhanced our working relationships 
with our international partners, sharing critical intelligence 
to identify terrorist networks and disrupt planned attacks 
around the globe.
    We have doubled the number of intelligence analysts on 
board and tripled the number of linguists. We have tripled the 
number of joint terrorism task forces, from 33 in September 
2001 to over 100 to date. Those task forces combine the 
resources and expertise of the FBI, the intelligence community, 
military, State, local, and tribal law enforcement.
    Another critical and important part of the FBI mission, the 
traditional mission is quite clearly our work against criminal 
elements in our communities, very often and most useful in task 
forces with our Federal and State and local and tribal 
partners.
    Also, public corruption remains the FBI's top criminal 
investigative priority. In the past 2 years alone, we have 
convicted over 1,800 Federal, State, and local officials for 
abusing their public trust.
    Similarly, our work to protect the civil rights guaranteed 
by our Constitution is a priority, which includes fighting 
human trafficking, as well as, our focus on the civil rights 
cold case initiative.
    Gangs and violent crime continue to be as much a concern 
for the FBI as it is for the rest of the country. The FBI's 143 
Safe Streets violent gang task forces leverage the unique 
knowledge of State and local police officers with Federal 
investigative resources to combat this growing problem.
    The FBI also sponsors 52 additional violent crime and 
interstate theft task forces, as well as, 16 safe trails task 
forces targeting crime in Indian country.
    The FBI combats transnational organized crime in part by 
linking the efforts of our Nation's 800,000 State and local 
police officers with international partners. This is 
accomplished through the FBI's legal attache offices of which 
we have over 60 at this juncture around the world.
    And finally, major white collar crime. From corporate fraud 
to fraud in the mortgage industry clearly continues to be an 
economic threat to the country. For example, in recent years, 
the number of pending FBI cases focusing on mortgage fraud, 
including those associated with subprime lending, has grown 
nearly 50 percent to over 1,300 cases. Roughly one-half of 
these cases have losses of over $1 million and several have 
losses greater than $10 million. In addition, the FBI will 
continue our work to identify large-scale industry insiders and 
criminal enterprises engaged in systemic economic fraud.
    As I believe both of you have pointed out and we, too, 
recognize that for the past 100 years of the FBI's history, our 
greatest asset has been our people. We are building on that 
history with a comprehensive restructuring of our approach to 
intelligence training for both our professional intelligence 
analyst cadre, as well as, for new FBI agents coming out of 
Quantico.
    We have and will continue to streamline our recruiting and 
hiring processes to attract persons having the critical skills 
needed for continued success of the FBI's mission.
    I also remain committed to ensuring our employees have the 
information technology infrastructure they need to do their 
jobs. This includes the continuing successful development of 
the Sentinel Case Management System, as well as, other 
information technology (IT) upgrades.
    I am very well aware of your concerns that we always use 
legal tools given to the FBI fully but also appropriately. For 
example, after the Department of Justice review of the use of 
national security letters, we instituted internal oversight 
mechanisms to ensure that we, as an organization, minimized the 
chance of future lapses.
    Among the reforms was the creation of a new Office of 
Integrity and Compliance within the Bureau to identify and 
mitigate potential risks.
    In closing, the FBI recognizes that it is in some sense a 
national security service responsible not only for collecting, 
analyzing and disseminating intelligence but most particularly 
for taking timely action to neutralize threats to this country. 
These threats could be from a terrorist, from a foreign spy or 
a criminal, and in doing so, we also recognize that we must 
properly balance civil liberties with the public safety in 
pursuing our efforts and we will continually strive to do so.

                           PREPARED STATEMENT

    Madam Chairwoman, Senator Shelby, I appreciate the 
opportunity to testify this afternoon and look forward to your 
questions.
    Thank you.
    [The statement follows:]
              Prepared Statement of Robert S. Mueller III
    Good afternoon, Chairwoman Mikulski, Senator Shelby, and Members of 
the Subcommittee. I appreciate the opportunity to appear before you 
today to discuss the President's fiscal year 2009 budget for the 
Federal Bureau of Investigation (FBI). I would also like to thank you 
for your continued oversight of the Bureau and for your efforts to 
ensure our success as we pursue the shared goal of making America 
safer.
    After the attacks of September 11, 2001, the FBI's priorities 
shifted dramatically as we charted a new course, with national security 
at the forefront of our mission. The intervening 7 years have seen 
significant changes at the FBI, and we have made remarkable progress. 
Today, the FBI is a stronger organization, combining greater 
capabilities with a longstanding commitment to the security of the 
United States, while at the same time upholding the Constitution and 
the rule of law and protecting civil liberties.
                          2009 budget request
    The fiscal year 2009 budget for the FBI totals 31,340 positions and 
$7.1 billion, including program increases of 1,129 new positions (280 
Special Agents, 271 Intelligence Analysts, and 578 Professional 
Support) and $447.6 million. These resources are critical for the FBI 
to perform its national security, criminal law enforcement, and 
criminal justice services missions. Most importantly, the additional 
funding requested will continue to build upon our on-going efforts to 
integrate and cement our intelligence and law enforcement activities. 
These resources will allow us to create an awareness of, and become 
receptors for change in threats, and have the ability to make immediate 
adjustments in priorities and focus in an environment where national 
security threats and crime problems are constantly changing and 
shifting.
    Guiding the development of the FBI's budget strategy are six 
enterprise-wide and interdependent capabilities that the FBI needs to 
effectively perform its national security, criminal investigative, and 
criminal justice services missions. These end-state capabilities are:
  --Domain and Operations.--A mature enterprise capability for 
        employing intelligence and analysis to identify and understand 
        the national security threats and crime problems challenging 
        America, and developing and executing operational strategies to 
        counter these threats and crime problems;
  --Surveillance.--A surveillance (physical, electronic, human source) 
        and operational technology capability to meet operational 
        requirements;
  --Partnerships.--An established and productive network of 
        partnerships with local, State, Federal, and international law 
        enforcement and criminal justice agencies;
  --Leveraging Technology.--An enhanced capability for providing 
        forensic, operational technology, identification, biometric, 
        training, and criminal justice services to the FBI workforce 
        and our local, State, Federal, and international partners;
  --Workforce.--A professional workforce that possesses the critical 
        skills and competencies (investigative, technical, analytical, 
        language, supervisory, and managerial), experiences, and 
        training required to perform our mission; and
  --Infrastructure.--A safe and appropriate work environment and 
        information technology to facilitate the performance of the 
        FBI's mission.
    The FBI's 2009 budget strategy builds upon both current knowledge 
of threats and crime problems and a forward-look to how we anticipate 
terrorists, foreign agents and spies, and criminal adversaries are 
likely to adapt tactics and operations in a constantly evolving and 
changing world. This forward-look helps inform and determine the 
critical operational and organizational capabilities the FBI must 
acquire over the same time period to remain vital and effective in 
meeting future threats and crime problems.
    We also linked our budget plan to the FBI's Strategy Management 
System to ensure the investments in new resources were tied to our 
strategic vision and goals.
    I will highlight some of the key components of our budget request 
below.
                         domain and operations
    In order for the FBI to be successful, we must be able to fully 
utilize our intelligence analysis techniques to establish a mature 
enterprise capability for identifying and understanding the national 
security threats and crime problems facing the United States, and to 
develop and execute operational strategies to counter these threats and 
problems.
    This budget requests 568 new positions (190 Special Agents, 158 
Intelligence Analysts, and 220 Professional Support) and $131.0 million 
to improve intelligence analysis and conduct intelligence-driven 
terrorism investigations and operations. These resources will enable 
the FBI to conduct investigations to prevent, disrupt and deter acts of 
terrorism and continue to strengthen working relationships with our 
Federal, State and local partners; provide support to the National 
Virtual Translation Center, which serves as a clearinghouse to 
facilitate timely and accurate translation of foreign intelligence for 
elements of the Intelligence Community; leverage and expand existing 
Foreign Terrorist Tracking Task Force (FTTTF) operations to support all 
National Security Branch (NSB) mission areas to include 
Counterintelligence, Weapons of Mass Destruction (WMD), Domestic and 
International Counterterrorism, and Intelligence; and address growth in 
the number of terrorism and counterintelligence-related computer 
intrusion cases.
    The National Counterterrorism Center's WMD Threat Assessment, 2005-
2011 reaffirmed the intent of terrorist adversaries to seek the means 
and capability to use WMD against the United States at home and abroad. 
Within the United States Government, the FBI has been assigned 
responsibility for Render Safe operations involving WMD in the National 
Capital Region and for the rendering safe of deliberate deployments of 
WMD throughout the remainder of the United States. To carry out its 
critical responsibilities in the area of WMD, the FBI must continue to 
build the capacities and capabilities of its Render Safe Program while 
ensuring that the FBI is adequately staffed and equipped to 
forensically respond to a terrorist incident, whether it be Chemical, 
Biological, Radiological, or Nuclear. The FBI's fiscal year 2009 budget 
includes 132 positions (43 Special Agents and 89 Professional Support) 
and $65.8 million to enhance the FBI's capabilities to prevent, prepare 
for, and respond to the threat of WMD. These resources will allow the 
FBI to enhance strategic partnerships with foreign intelligence, law 
enforcement, security, public health, agricultural, chemical, and other 
public and private sector agencies and organizations that are vital to 
the early detection of a potential WMD incident.
    The FBI's fiscal year 2009 budget for Domain and Operations also 
includes an enhancement of 211 positions (35 Special Agents, 113 
Intelligence Analysts, and 63 Professional Support) and $38.6 million 
to support investigative, intelligence, and technical requirements of 
the Comprehensive National Cybersecurity Initiative.
    The threat of cyber-related foreign intelligence operations to the 
United States is rapidly expanding. The number of actors with the 
ability to utilize computers for illegal, harmful, and possibly 
devastating purposes continues to rise. Cyber intrusions presenting a 
national security threat have compromised computers on United States 
Government, private sector, and allied networks. The FBI is in a unique 
position to counter cyber threats as the only agency with the statutory 
authority, expertise, and ability to combine counterterrorism, 
counterintelligence, and criminal resources to neutralize, mitigate, 
and disrupt illegal computer-supported operations domestically. The 
FBI's intelligence and law enforcement role supports response to cyber 
events at United States Government agencies, United States military 
installations, and the broader private sector.
                              surveillance
    Shifting from a reactive criminal prosecution approach to a 
prevention and intelligence-driven focus in our counterterrorism 
program is taxing the FBI's capacity to gather intelligence through 
both physical and electronic surveillance. The capacity to carry out 
extended covert court-authorized surveillance of subjects and targets 
is absolutely critical to the FBI's counterterrorism and 
counterintelligence programs. Surveillance activities--physical and 
electronic--give us insight into and awareness of our adversaries, 
which, in turn, create opportunities to identify sleeper cells, disrupt 
support networks and communications, and recruit assets. We need a 
vigorous surveillance capacity to keep on top of known and emerging 
targets. Additionally, we must be able to develop and deploy new 
operational technologies and techniques to counter a more technically 
sophisticated adversary and to exploit and share the information we 
gather.
    In fiscal year 2009, we seek an enhancement of 145 positions (10 
Special Agents and 135 Professional Support) and $88.5 million to 
strengthen surveillance capabilities. These resources will enable the 
FBI to increase the number of physical surveillance teams; replace 
aging surveillance aircraft; develop new techniques and tools to 
address emerging technologies; meet demands for new audio and data 
collection and upgrade or replace obsolete digital collection system 
equipment and components; and develop new techniques and tools for 
tactical operations.
                              partnerships
    The FBI prides itself on establishing and maintaining a productive 
network of partnerships with local, State, Federal, and international 
law enforcement and criminal justice agencies. In order to do this, we 
must enhance our capability and capacity to collect, manage, analyze, 
and share information within the FBI and with our Intelligence 
Community (IC), law enforcement, and allied partners. The fiscal year 
2009 budget includes 3 positions (2 Special Agents and 1 Professional 
Support) and $5.7 million to expand the FBI's presence overseas to 
obtain intelligence relative to threats involving the homeland; open 
and staff a new Legal Attache office in Algiers, Algeria, which will 
address a significant number of counterterrorism cases and leads in 
that region; and enhance the FBI's ability to participate in State and 
local intelligence Fusion Centers, which have become an important 
component in maintaining the flow of information between and within 
Federal, State, local, and Tribal Governments.
                         leveraging technology
    Technology is the cornerstone to fulfilling the FBI mission as well 
as creating efficiencies for both FBI personnel and our Intelligence 
and Law Enforcement Community partners. Leveraging technology will 
allow the FBI to provide forensic, analytical, and operational 
technology capabilities to FBI investigators and analysts, law 
enforcement officers, and the intelligence community. Without enhanced 
resources to invest in applied research, development, knowledge 
building, testing, and evaluation, the FBI will not be able to take 
advantage of emerging technologies or adapt to a constantly changing 
and evolving threat and operational environment.
    For example, the use of DNA technology continues to be an important 
tool for law enforcement; it not only helps identify suspects, but it 
can also be used to ensure innocent persons are not wrongly convicted 
of a crime. The FBI Laboratory continues to support forensic 
exploitation analysis for FBI investigations, State and local cases, 
and terrorist identification from Improvised Explosive Devices (IEDs) 
obtained from in-theater operations in Iraq and Afghanistan. The FBI's 
fiscal year 2009 budget includes 52 Professional Support positions and 
$32.1 million for DNA-related initiatives and enhanced counterterrorism 
and forensic analysis support for FBI investigations. The failure to 
provide timely examination results can affect information available for 
prosecutors during trials or negotiating plea agreements, or can cause 
a delay in the gathering of intelligence to support the identification 
of terrorists and their associates, which could impact the safety of 
United States troops overseas. By enhancing the forensic capabilities 
of the FBI Laboratory, the FBI will be better positioned to solve 
crimes and offer assistance to partner law enforcement agencies.
    The FBI must also keep pace with evolving technology. Currently, 
all wireless carriers in the United States are upgrading their networks 
to 3rd Generation wireless technology. This upgrade will radically 
transform voice, internet, email, short message service, multimedia 
services and any future services from circuit-switched data to packet 
transferred data. The FBI, along with the rest of the Intelligence 
Community, has created a Joint Wireless Implementation Plan, which will 
allow us to provide the field with advanced tools and technologies as 
well as provide adequate training on the use of duly authorized 
wireless intercept and tracking tools. The fiscal year 2009 budget 
includes $4.1 million to assist us in keeping abreast of this cutting 
edge technology and the ability to counter the technology posed by our 
adversaries.
                               workforce
    The FBI remains committed to a professional workforce that 
possesses the critical skills and competencies (investigative, 
technical, analytical, language, supervisory, and managerial), 
experience, and training required to perform our mission. With an 
expanding mission and a growing workforce there will be an increase in 
workforce-related challenges that need addressing. We must be able to 
attract strong candidates to fill Special Agent, Language Analyst, 
Intelligence Analyst, and Professional Support positions, bring these 
candidates on-board in a timely manner, and provide them with 
professional training.
    The fiscal year 2009 budget includes 18 positions and $43.6 million 
to address these workforce requirements, including resources for 
National Security Branch Training, which will enable the FBI to expand 
the number of Domestic Human Intelligence (HUMINT) Collection Courses, 
develop and deliver a HUMINT training program that specifically 
addresses terrorist organizations, and provide training to Cyber 
investigators on national security-related computer intrusions; the 
Foreign Language Proficiency Pay Program (FLP3), which will 
dramatically increase the FBI's recruitment and retention of highly 
qualified language professionals, especially those with expertise in 
Arabic, Urdu, and Chinese; pay modernization efforts, which will align 
FBI efforts more closely to the pay modernization plans established by 
the Office of the Director of National Intelligence (ODNI); and the 
FBI's Personnel Security Program, which will expedite the 
investigation, adjudication, and polygraph examination for prospective 
FBI employees and contractors.
    As a leader in the Intelligence and Law Enforcement Communities, 
the FBI must be equipped to hire, train, and pay the specialized cadre 
of personnel that the FBI employs.
                             infrastructure
    Critical to the success of the FBI's mission are safe and 
appropriate work environments and state-of-the-art information 
technology (IT). Over the years, the FBI has made substantial 
investments to upgrade its information technology architecture, 
including the purchase of computer workstations and software for 
employees and networks for connectivity both within the FBI and with 
external partners. Additionally, the FBI is moving forward to invest in 
upgrading field and training facilities to ensure secure and adequate 
workspace. However, the FBI still faces gaps in its capacity to support 
all of its critical projects and initiatives. Continued investments are 
needed to close the gaps to ensure the availability of critical FBI IT 
systems, applications, facilities, and data in the event of a disaster. 
The fiscal year 2009 budget includes $38.2 million to continue to 
develop facilities and IT support and services.
    The FBI prides itself on its ability to share information in a 
timely manner. The fiscal year 2009 budget includes resources to 
enhance and extend the unclassified network (UNet) and integrate it 
with the Law Enforcement Online, as well as upgrade our IT disaster 
recovery locations. This funding will enable the FBI to increase 
information sharing capabilities within the Bureau as well as with 
outside entities, like the Intelligence Community. Additionally, this 
funding will support the creation of backup IT capabilities to be 
available in the event of a catastrophic disaster.
    The FBI's budget also includes upgrades to our field facility 
infrastructure, expansion of the FBI Academy, and security for field 
office expansion. The FBI is in dire need of adequate space for FBI 
personnel and the large number of FBI-led, multi-agency task forces 
such as Joint Terrorism Task Forces, Safe Streets Task Forces, Health 
Care Fraud Task Forces, and Field Intelligence Groups. These resources 
will support the FBI's facility requirements to ensure adequate, safe, 
and secure working environments. The budget also includes resources to 
consolidate FBI records at the Central Records Complex (CRC). The CRC 
will enable us to efficiently locate and access all of our records 
quickly, thus allowing us to more effectively process name checks.
  strategic execution team: improvement of fbi's intelligence program
    Before closing, I would like to tell the Committee about our 
Strategic Execution Team (SET) and describe some of the changes that 
team has brought about toward improving FBI intelligence activities. 
This team exemplifies the commitment of the men and women of the FBI to 
successfully integrating our intelligence and law enforcement 
activities.
    We recently completed a comprehensive self-assessment of our 
intelligence program and concluded that we need to move further and 
faster to enhance our capabilities. In consultation with the 
President's Intelligence Advisory Board, we began working to examine 
how we can accelerate our progress and we have identified a number of 
areas where we are focusing our efforts.
    We have created a SET of field and headquarters personnel to help 
drive implementation of needed changes across the organization. The SET 
team includes approximately 90 agents, analysts, and other professional 
staff, from FBI Headquarters and roughly 27 field offices. This team 
has focused its initial efforts on three critical areas: intelligence 
operations, human capital, and program management.
    With the guidance of the SET, we are restructuring our Field 
Intelligence Groups (FIGs), so they can better coordinate with each 
other, with street agents, and with analysts and agents at FBI 
Headquarters. Drawing from the best practices we identified, we have 
developed a single model under which all FIGs will function, to 
increase collaboration between intelligence and operation, and to 
provide accountability for intelligence gathering, analysis, use, and 
production. The model can be adjusted to the size and complexity of 
small, medium, and large field offices.
    To enhance our collection capabilities, we are taking a two-pronged 
approach. First, we must ensure we are taking full advantage of our 
current collection capabilities in terms of what we know through our 
case work, and what we could know if we asked our existing source base 
the right questions. Tactical analysts will work with investigative 
squads, in all program areas, to ensure that collection plans are 
executed, and to help squads identify opportunities to address the 
intelligence requirements of the office.
    Second, to enhance the picture of a threat developed through our 
investigations, the FIG will include a team of specially trained agents 
who will collect intelligence to meet requirements, conduct liaison 
with local partners, and focus on source development.
    In terms of human capital, we have refined the Intelligence Analyst 
career path, including training, experiences, and roles that are 
required to develop a cadre of well-rounded and highly proficient 
analysts. We have also established core intelligence tasks for all 
Special Agents, further defined the Special Agent intelligence career 
path, and tailored individual development plans for all agents. 
Finally, we have developed a university recruiting program to hire 
additional intelligence analysts with targeted skill sets. We received 
hundreds of applications as a result of this effort.
    We in the FBI are mandated by the President, Congress, the Attorney 
General, and the Director of National Intelligence to protect national 
security. For nearly 100 years, the FBI has used intelligence to solve 
cases; today, however, we rely on our agents and analysts working hand-
in-hand with colleagues across the country and around the world to 
collect intelligence on multiple, inter-related issues. With the 
authority and guidance provided by the Intelligence
    Reform and Terrorism Prevention Act and other directives and 
recommendations, the FBI has implemented significant changes to enhance 
our ability to counter the most critical threats to our security.
    Today, we are building on our legacy and our capabilities as we 
focus on our top priority: preventing another terrorist attack. It is 
indeed a time of change in the FBI, but our values can never change. We 
must continue to protect the security of our nation while upholding the 
civil rights guaranteed by the Constitution to every United States 
citizen.
    When I speak to Special Agents upon their graduation from the FBI 
Academy, I remind each one that it is not enough to prevent foreign 
countries from stealing our secrets--we must prevent that from 
happening while still upholding the rule of law. It is not enough to 
stop the terrorist--we must stop him while maintaining civil liberties. 
It is not enough to catch the criminal--we must catch him while 
respecting his civil rights. The rule of law, civil liberties, and 
civil rights--these are not our burdens; they are what make us better.
                               conclusion
    Madam Chairwoman, I would like to conclude by thanking you and this 
Committee for your service and your support. Many of the 
accomplishments we have realized during the past 7 years are in part 
due to your efforts and support through annual and supplemental 
appropriations. From addressing the growing gang problem to creating 
additional Legal Attache offices around the world, and, most 
importantly, to protecting the American people from terrorist attack, 
you and the Committee have supported our efforts.
    On behalf of the men and women of the FBI, I look forward to 
working with you in the years to come as we continue to develop the 
capabilities we need to defeat the threats of the future.

                             MORTGAGE FRAUD

    Senator Mikulski. Thank you very much, Director Mueller. We 
have about 4 minutes left in the vote. Senator Shelby and I are 
going to dash to the vote. This subcommittee will stand in 
recess. The first one back will reopen the hearing.
    This subcommittee will reconvene for the purposes of asking 
questions.
    Senator Shelby, I am going to take about 5 minutes, turn to 
you and then we'll come back for a second round. I know your 
ranking membership on the Banking Committee is taking a lot of 
your time.
    So, my first question is going to deal with mortgage fraud 
and the whole issue of predatory lending. As we look at what 
are the resources that the FBI needs, we know we've talked 
about the national security issues related to 
counterintelligence, counterterrorism, and the cyber 
initiative, I'll come back to that, but you've also gotten a 
surge responsibility related to mortgage fraud and the FBI 
mortgage load, the FBI mortgage fraud workload is increasing 
dramatically.
    The suspicious activity reports of mortgage fraud is up 300 
percent. We know that your workload has increased and it 
requires a very sophisticated--all of your agents are 
sophisticated, but this goes to forensic accounting and a whole 
lot of other very technical fields.
    Could you share with us what is it that you need in order 
to continue to do the type of investigations America needs you 
to do? We know that the workload has increased, that you have 
138 agents dedicated to investigating mortgage fraud.
    How many more agents do you need? Will you be able to add 
them? What is it that you need in the budget to really be able 
to meet this kind of surge demand?
    Mr. Mueller. Madam Chairwoman, as you point out, we've had 
a tremendous surge in cases related to the subprime mortgage 
debacle.
    We currently have almost 1,300 cases that have grown 
exponentially over the last several years and we expect them to 
grow even further. We also, as I pointed out in my statement, 
have 19 cases involving institutions themselves, where mortgage 
fraud may have contributed to misstatements and the like as you 
have pointed out, each of these cases, particularly the larger 
ones, require forensic analysis.
    We currently have a total of 150 agents who are working 
these cases. The vast majority of agents are working cases on 
brokers, buyers, lenders and the like and other agents that are 
working on the corporation misstatements. We also are 
participating in 33 task forces around the country.
    What we have found is that, over the last couple of years, 
we have had to take agents from other areas, whether it be 
healthcare fraud or other financial fraud cases, and put them 
on this area.
    When the budget was put together, the subprime mortgage 
cases had not grown to the point where we could anticipate the 
extent of the surge. Even at this point, I'm not certain at 
this point we can see the extent of the surge.
    What I'd like to do is be able to get back to you in terms 
of how many additional resources we need to address this.
    [The information follows:]

                        Mortgage Case Resources

    The FBI will work with the Department of Justice, the 
Office of Management and Budget, and Congress to convey the 
full resource requirements required to address Mortgage Fraud 
investigations.

    Mr. Mueller. One other point that you have raised in the 
past, as I recall, and that is the possibility of seeing an 
upsurge in cases relating to reverse mortgages. That is 
something that we are seeing and may well need additional 
resources to address.
    It is still too early to discern the full contours of the 
extent of the number of cases that we'll have to address, but 
we'll keep in touch with the subcommittee on that.
    Senator Mikulski. Well, we want very much to work with you 
because we feel that the enforcement of existing laws and 
holding people accountable through rigorous and fair 
investigations are what is very much needed.
    We need to not only protect the American people with their 
foreclosures but we have to make sure that we maintain 
confidence in the financial institutions. If we have a collapse 
of confidence, this could have even far more draconian effects 
on our economy.
    So, we'd like to hear back from you about what do you need 
to do the job that you're required and we request you to do. 
What we're looking for is full budgeting, not only the number 
of agents but the other kind of technical assistants you might 
need from others that are agents, as well as clerical help, et. 
cetera. This is enormously significant, important and timely. 
So, we look forward to hearing from you on that.

                     STATE AND LOCAL VIOLENT CRIME

    The other area that I want to move on is the whole issue of 
State and--excuse me. State and local violent crime. State and 
local law enforcement strongly support the joint Federal-State 
task forces. We hear that everywhere, but we're concerned that 
you've not had the resources to expand the program.
    In the President's request to us, there's no additional 
funding to expand these excellent task forces where we maximize 
the resources of the Federal Government and utilize the 
resources of State and local.
    You know that crime is up, robbery, aggravated assault, 
murder. So, our question to you is with the violent crimes on 
the rise, what is it that you think--what would be the 
desirable number you would like to expand the joint task forces 
and what would it take to do that?
    Mr. Mueller. Well, as I think I pointed out, we have 182 
violent gang crime task forces now, we continue to expand. We 
have 16 safe trails task forces, 23 child prostitution task 
forces, and 9 major theft task forces around the country.
    Senator Mikulski. Say that last one again.
    Mr. Mueller. We have 23 child prostitution task forces and 
nine major theft task forces around the country today.
    Senator Mikulski. Child prostitution?
    Mr. Mueller. Child prostitution task forces, yes. Children 
that are----
    Senator Mikulski. Lured into this?
    Mr. Mueller [continuing]. Lured into child prostitution 
rings, yes, around the country.
    Senator Mikulski. God.
    Mr. Mueller. Whether it be violent crime or areas such as 
this, it is our belief we have approximately 12,500 agents at 
this juncture, and we leverage our resources by task forces 
with our State, local, and other Federal counterparts.
    Regardless of the vehicle on the Federal side, I do believe 
that it's important that the State and local police 
departments, and sheriffs' office's are encouraged to 
participate in these task forces. Regardless of the vehicle, to 
the extent that funds are made available and tied into 
participation on task forces, it maximizes our ability and the 
ability of State and local law enforcement to address a number 
of these issues that you have raised.
    Senator Mikulski. Well, I'm going to come back to crimes 
against children. I'm going to turn now, my time is up, to 
Senator Shelby. I was a child abuse social worker. You know, 
all crimes are terrible but crimes against children are 
heinous. So, we'll come back, and we know the FBI's been just 
great on this, on the Internet predator and so it's a tough 
duty.
    Senator Shelby.

                          RENDER SAFE MISSION

    Senator Shelby. Thank you, Madam Chairwoman. Mr. Director, 
I alluded in my opening statement to the $38 million provided 
in the 2008 war supplemental with the OMB program, associate 
directors for justice, which it's my understanding they have 
refused to release.
    When these--when requested, these funds were critical, we 
were told, for the Bureau to perform its WMD and render safe 
missions. These funds have been available for obligation for 
approximately 1 year and will expire, as I mentioned, in 6 
months.
    Two questions. Are these funds critical to successfully 
carry out your mission?
    Mr. Mueller. They are, Senator, and let me explain a little 
bit about the mission to the extent that I can do so without 
going into classified matters.
    That mission requires us to put together WMD response 
teams, which include persons with the skills to be able to 
render safe various WMD devices. However, it also requires 
supporting command, control, communications, logistics, 
scientific and hazardous materials support elements as well, 
and coupled with that is a necessity for mobility of getting 
those resources to the site of the device.
    We have had tremendous support in long distance and getting 
those resources necessary for the program. We have been working 
with OMB to get the support for the release of that 38,000 that 
you mentioned.
    Senator Shelby. $38 million.
    Mr. Mueller. $38 million. Maybe it's a wee bit more than 
what I said. The $38 million that you mentioned, and it is 
tremendously important because we do have the responsibility 
for the National Capital Region, as well as, responsibility 
across the country and consequently that's important to us.
    Senator Shelby. Why is it--what's the hold-up with OMB?
    Mr. Mueller. Well, we're in discussions with 
representatives of OMB and our hope is that these funds will be 
released relatively shortly.
    Senator Shelby. Okay.
    Senator Mikulski. Mr. Chairman, may I interrupt----
    Senator Shelby. Yes, you may.
    Senator Mikulski [continuing]. Without in any way taking 
from your time?
    I am very disappointed in this, and I think my colleague 
and I would like to--we just had kind of a dust-up with OMB 
over law enforcement, at least I had a dust-up with them, and 
they've got to release the money and we would again work on a 
bipartisan basis to write a letter to him or to ask for the 
release of the money.
    It was appropriated in the supplemental. You need the money 
and this is a pretty important mission, so much so that we 
can't even talk about it except in a classified way. It doesn't 
get any bigger deal than that.
    So, Senator Shelby, why don't, after the hearing, you and I 
put our heads together and see if we can't spring this?
    Senator Shelby. We want to work with the Director on this.
    Senator Mikulski. Yes, absolutely.
    Mr. Mueller. Let me just say that OMB has been supportive 
of this, in supporting our mission. This is the one outstanding 
issue there is, but they have been tremendously supportive of 
our mission.
    Senator Shelby. Do you think you'll resolve this on your 
own?
    Mr. Mueller. It is my hope that we can. As I say, we've had 
discussions with OMB recently as well.
    Senator Shelby. Okay.
    Senator Mikulski. Well, we do the supplemental, the new 
supplemental, the new new new supplemental, and if it hasn't 
been--we've got to get that done, but we're going to be 
holding--we're going to be moving the supplemental in 2 weeks 
to the floor. So, let's--if we can't get it done in 2 weeks, we 
have to go to plan B. Okay?
    Mr. Mueller. Okay. Yes, ma'am.

                              FUNDING GAP

    Senator Shelby. Thank you, Madam Chairwoman. Budget for 
shortfalls. The budget the administration has submitted on 
behalf of the FBI proposes an additional $450 million to 
partially fund the implementation of the Bureau's intelligence 
mission and national security initiatives.
    This budget request fails to fix a $56 million gap in your 
base funding. During the 2008 budget process, Chairwoman 
Mikulski and I worked to provide the resources that you needed, 
Mr. Director, to close a $139 million shortfall in your budget. 
We expected the administration to fix the problem it created 
and we're disappointed that once again we're facing the 
substantial base shortfall in the FBI.
    With that in mind, what would be the impact on the FBI if 
there was a long-term continuing resolution for the first 90 to 
180 days of 2009? I know I don't want to contemplate that. It 
would be an impact.
    Mr. Mueller. I want to thank the subcommittee for its 
efforts last year on the shortfall. Most of it was taken care 
of. To the extent it was not, it did affect our ability to 
fully fund programs, such as the deoxyribonucleic acid (DNA), 
cyber, surveillances and the like.
    If there is a continuing resolution and I would say 90 
days, it would probably have an impact or shortfall of 
approximately $30 million and that would result in a--could 
conceivably result in a hiring freeze and it would require 
across-the-board reductions in all of our programs, and I do 
point out that from experience. I know that a number of the 
national security-related budgets were passed earlier last 
year. These include the Department of Homeland Security (DHS), 
quite obviously the military, as well as, the intelligence 
budgets. Now that we are a partner in the intelligence 
community, I would hope that the subcommittee would look at the 
impact of continuing resolutions. I recognize perhaps that we 
do need a budget as soon as possible, if we are to maintain and 
increase the programs that we have been discussing here.
    Senator Shelby. So basically, it could affect you carrying 
out your missions?
    Mr. Mueller. Yes. Yes, sir.

              SHIFT OF CRIMINAL AGENTS TO COUNTERTERRORISM

    Senator Shelby. And the subject of realignment of FBI, I 
guess, from criminal cases to terrorism, since 9/11, the FBI 
has shifted more than 2,000 agents from criminal investigations 
into terrorism. I agree that terrorism is the highest priority 
and represents the gravest threat to national security.
    I think it's also shortsighted for us to continue to 
cannibalize the criminal side of the FBI when we should be 
requesting more agents and resources to provide the FBI with 
the means to fight the threat of terrorism, as well as, help 
State and local law enforcement fight the rising crime epidemic 
gripping our communities.
    Mr. Director, are you satisfied that the FBI is reaching 
the right balance in resources between its national security 
and the criminal investigation missions or could you do more 
with more resources?
    Mr. Mueller. Well, the answer to the last part of that 
question is yes, we could do more with the resources.
    The fact of the matter is----
    Senator Shelby. Without the resources, you've got one hand 
tied behind you.
    Mr. Mueller. We do, and the fact of the matter is, you've 
used the word ``cannibalize,'' and I think that is appropriate, 
we've taken resources from the criminal side of the house to 
meet our national security responsibilities and to build up the 
intelligence side of the house which was absolutely essential 
in the wake of September 11th.
    We increasingly find that State and local law enforcement 
want us back working on task forces with them. Not across the 
country generally but in certain places across the country 
warrants a backfill of those agents who we've had to take from 
the criminal side of the house and put on the national security 
side of the house.
    Likewise, with the subprime mortgage crisis, the Innocent 
Images task forces, the growth of the Internet and the cyber 
challenges present unique threats that we now face. On the 
criminal side of the house, I do believe it's important to 
recognize that we have certain particular skills that could 
augment State and local law enforcement. Furthermore, we should 
consider building up those agents and the other support 
functions that we've had to push over to the national security 
side since September 11th.

              TERRORIST EXPLOSIVE DEVICE ANALYTICAL CENTER

    Senator Shelby. I want to get into the subject of the FBI 
labs. The Terrorist Explosive Device Analytical Center, TEDAC 
we call it, accounted for almost two-thirds of the evidence 
submitted to the FBI lab for processing in 2007. This increased 
workload has affected the lab's ability to assist other 
agencies, including State and local law enforcement.
    The budget, this budget contains a request to reduce the 
backlog of the Federal Convicted Offender Program, but there 
appears to be minimal new resources to address the workload 
generated by TEDAC.
    Is the case turnaround time, which I'm told, Mr. Director, 
is currently averaging around 200 days, for processing evidence 
in the FBI lab an impediment to cases and prosecutions?
    Mr. Mueller. Yes.
    Senator Shelby. If not, could it be?
    Mr. Mueller. Yes, it is. We have two challenges here. One 
is IEDs, as you pointed out, and to bring in our expertise, 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF's) 
expertise to IEDs, whether they be in Iraq and Afghanistan or 
elsewhere around the world, and not only identifying----
    Senator Shelby. Sometimes here, although----
    Mr. Mueller. Or perhaps here----
    Senator Shelby [continuing]. I'm not suggesting----
    Mr. Mueller [continuing]. Ultimately.
    Senator Shelby [continuing]. That.
    Mr. Mueller. But identifying the engineer, the persons 
responsible for the various mechanisms that are used, but also 
utilizing DNA and fingerprints, contributing to intelligence 
has been tremendously effective for the military.
    On the DNA side of the house, that has meant a delay and 
we've also had additional responsibilities on the DNA side of 
the house when broader categories of individuals whose 
specimens need to go into our databases and so on both fronts, 
we're facing a shortfall and have requested funds to address 
that shortfall.
    Senator Shelby. So TEDAC basically is not sufficient a 
resource to do its job, not the job you would want it to do?
    Mr. Mueller. Well, again we've had to take resources from 
the criminal cases to address the national security which in 
this case is TEDAC as opposed to the services that have 
traditionally provided, not only to our investigators on the 
criminal side but also State and local investigators, and we 
have had to, to a certain extent, dry up the support we give 
the State and local laboratories traditionally in order to meet 
the national security demands that have been placed upon us.
    Senator Shelby. Senator Mikulski, I hope that we'll look at 
this hard and fast as we get into this to make sure that we 
fund it properly.
    Senator Mikulski. Absolutely. I find it--I find this very 
troubling.

                              FBI ACADEMY

    Senator Shelby. Quantico, very important, the FBI Academy 
in Quantico. Not only trains all FBI special agents but also 
trains intelligence analysts, as well as, State, local and 
international law enforcement National Academy students.
    Some of us are concerned that your training infrastructure 
needs are not being met here. It's a question of resources. The 
FBI Academy has expanded over the years and still struggles to 
satisfy all of the requirements of students and faculty to 
ensure that your agents, analysts and the National Academy 
students have the finest training capability available.
    In 2009, the FBI requested $9.8 million for FBI Academy 
instruction. Does this funding satisfy all your needs or is 
this just meeting the minimum?
    Mr. Mueller. Our buildings we have at Quantico for agents 
and the like are 40 years old at this juncture. We have gotten 
funds in past years to upgrade them, but it is certainly not 
enough.
    We have additional demands, as I indicated in my remarks, 
and we've doubled the number of investigative or intelligence 
analysts. They need to be trained and that has put a demand on 
the facilities at the FBI Academy.
    One of the crown jewels of the Bureau is the National 
Academy and the training that is done for not only State and 
local law enforcement, but also international law enforcement. 
There have been demands to expand our classes, both for State 
and local, as well as, international, and so we have additional 
demands, as well as, a relatively old structure that we would 
like to expand our capabilities of the FBI Academy to address 
these demands but also we have to continue to upgrade our 
facilities to meet our training needs.
    An example is as we get enhanced technology in the Bureau, 
the buildings are 40 years old and do not have the wiring that 
enables us to put in the classified networks that we need to 
provide the instruction for both our analysts, as well as, our 
agents.

                       CYBER SECURITY INITIATIVE

    Senator Shelby. The national cyber security initiative. I 
don't know what you can talk about here. We might need a 
classified briefing, Mr. Director, but to talk about the role 
of the national cyber security initiative, why it's important 
and also the resources. Is that more a place for a classified 
hearing than this?
    Mr. Mueller. I think I can talk generally about this 
initiative and then if it would be helpful, we can certainly go 
to a different session.
    The challenge of protecting the variety of networks, 
Government and private, is going to be increased over the 
years. We have the example that you mentioned, Madam Chairwoman 
in Estonia recently where it was subject to a wave of cyber 
attacks which could happen not only to Estonia but around the 
world.
    We have the responsibility to prevent and investigate the 
attacks within the United States. Most often, attacks do not 
occur within our borders but from outside our borders, which 
requires the integration of our experts with experts from other 
countries and the use of our legal attaches.
    In the last year or so, we have joined with our 
counterparts at the National Security Administration (NSA), 
Department of Defense (DOD), and the Department of Homeland 
Security to put together what is called the national cyber 
investigative joint task force which has us working in an 
integrated fashion to address these threats.
    We need to build on our capabilities, as well as, the 
capabilities of the Government overall. We have requested 211 
positions and $39 million in this budget to address the 
challenges we see from the threat of cyber attacks.
    Senator Shelby. Thank you. Thank you, Madam Chairwoman.
    Senator Mikulski. Senator Shelby, we are going to have a 
classified conversation about this rather than a formal hearing 
in which you and I and others can participate.
    I discussed this with Director Mueller yesterday. There are 
things that really are said elsewhere and last week, Senator 
Stevens presided over a DOD hearing on the DOD aspects. This is 
a pretty big deal.
    Interestingly enough, Business Week this week has a whole--
that's their front page about the possible attacks on corporate 
networks which, of course, have significant effect, financial 
networks, et cetera.
    So, we're going to hold a conversation with you to make 
sure that we're on the right track in terms of technology, 
workforce, while the administration works out a complicated 
governance approach.
    Also, if you would like to have an additional classified 
conversation on the Render Safe Program, we would want to 
cooperate with you on arranging it. It's really needed.
    Senator Stevens, we're happy to see you today.
    Senator Stevens. Thank you. I've got other hearings going 
on. My neighbor is here, but I wondered about the concept of 
the arrangements the FBI has with the Department of Homeland 
Security.
    It seems to me we're spreading this whole thing across the 
Government now. We had the hearing on DOD, as you said. We're 
having one on Homeland Security.
    Are you sharing across the board now in terms of these 
operations? You relate to a certain extent with Homeland 
Security, right?
    Mr. Mueller. Yes, sir. Whether it be the cyber initiative 
where we have roles, we work with Department of Homeland 
Security on the national cyber investigative joint task force 
that I just mentioned, but beyond that, we are working with 
Homeland Security fusion centers that have been established 
States around the country.
    We work very closely with them in terms of protecting our 
borders against terrorists. Are, I would say, across the board 
integrated with the Department of Homeland Security across the 
country.
    The last point I would mention is on joint terrorism task 
forces. We have over 100 joint terrorism task forces around the 
country now and we have members from various elements of the 
Department of Homeland Security that participate in task 
forces.
    Senator Stevens. Senator Mikulski mentioned, as a matter of 
fact, that was a classified issue. We can't talk about numbers, 
but I can tell you I was shocked with the numbers we saw, and I 
think you were, too, weren't you, Madam Chairman, in terms of 
the whole question of preparing to deal with the defense 
against cyber attacks.
    We've got a massive amount in the Defense Appropriations 
Subcommittee. We've got some in Homeland Security. Do you have 
part of that cyber attack in this budget?
    Mr. Mueller. We have a piece of it, yes, and----
    Senator Stevens. We need to know how it all fits together 
and how much it really is, if it's stretched so far, is what 
I'm asking.
    Mr. Mueller. We have a piece of it and we have worked with 
others in the community to set out a 5-year plan for what we 
need to build to address this particular threat.
    Senator Stevens. Would it be proper to suggest that maybe 
one of these days we should have a classified hearing with all 
three there----
    Senator Mikulski. You know,----
    Senator Stevens [continuing]. To discuss this in depth?
    Senator Mikulski [continuing]. I absolutely do. We 
encouraged Director McConnell, the head of the DNI, to meet 
separately with the appropriators involved with this.
    For those of us on the Intel Committee, we got an overall 
picture and we were concerned exactly what you're raising, 
Senator. How does it all fit together? How do we sequence what 
we need to fund because you don't fund everything at the same 
time, and then the overall question, sir, about who is in 
charge?
    But I think, why don't we cooperate with Senator Byrd and 
Senator Inouye and the ranking members and let's have a 
conversation about this?
    Senator Stevens. I hope you understand what we're saying. 
We--I believe we want redundancy and I do believe we want 
everyone involved to use their expertise, but the problem is, 
is do we have an overlapping of funding that is warranted?
    I tell you, if you saw the figures we saw projected out for 
the next 5 years, it was a substantial increase that we're 
looking at, and I don't know, we haven't got yours for that 5-
year period, but I do hope we can find some way to be assured 
that the money follows the assignment responsibility that we 
don't have a duplication of funding occurring without intention 
to do so and just not really realizing how much jointness there 
is in this operation.
    Mr. Mueller. I think----
    Senator Stevens. I'm talking about cyber now.
    Mr. Mueller. Right. We're talking about cyber. The Director 
of the DNI, Admiral McConnell, would be very willing to sit 
down with Mike Chertoff, myself and others to explain and lay 
out exactly how the pieces come together.
    I do understand substantial funding----
    Senator Mikulski. Do you want to do that?
    Senator Stevens. Yes. Thank you very much.
    Mr. Mueller. Thank you.
    Senator Stevens. That's my answer.

                                SENTINEL

    Senator Mikulski. Thank you very much, Senator Stevens.
    We will pick up on this because it's not only the money but 
it also goes to what needs to be done when, by whom, and who's 
in charge, number 1, and number 2, who will provide the 
technological assurances that we don't--that it's a boon, not a 
boondoggle. So, we don't need to go into that here.
    I want to raise, though, something that was a boondoggle 
that we turned into a boon which goes to our favorite program 
of the Sentinel. If I could, I'd like to focus on some of the 
oversight issues.
    Some years ago, this subcommittee was faced, as you were, 
where the fact that the attempt to develop an electronic case 
management system called Trilogy became deeply troubled and 
dysfunctional. We then moved to a new effort called the 
Sentinel.
    This is a very important tool because right after 9/11, the 
case management issues were not only what did we know and when 
did we know it but did we know how to connect the dots and 
that's why we looked for a new case management system. It 
wasn't only to be cool and groovy with electronics and be 
paperless, it was to have a better chase.
    So, having said that, while we're here today to stand 
sentry on the Sentinel. So, could you tell us where we are and 
how is the progress coming?
    Mr. Mueller. As you point out, in the wake of September 
11th, we had a contract to complete that had been started 
before September 11th called Trilogy. It was called Trilogy 
because there were three legs to the stool. Two of them were 
successful; that is, the networks themselves and other aspects 
of putting in place the infrastructure. What was not successful 
was the third leg of the stool and that was the software.
    We had to make a very difficult decision and say we could 
not go forward on that and, as you point out, it was replaced 
by Sentinel, which is contracted by Lockheed Martin, is a 
forward-based system.
    Phase 1 was successfully deployed in June 2007 and with the 
lessons from the deployment of phase 1, we have gone to what is 
called an incremental development strategy for phases 2 through 
4.
    We have had 12 builds since June on phase 1 which is part 
of that incremental development strategy, and phase 2 is on 
schedule and within planned costs.
    As an aside, I would say that the FBI and Lockheed Martin 
deployed phase 1 on budget and a few weeks late, but phase 2 is 
on schedule and currently within planned costs. Indeed, on 
April 4, we delivered the Enterprise Portal, which is a key 
component of the Sentinel project.
    I meet with CEO Bob Stevens of Lockheed Martin quarterly to 
make certain that this program is on track. Others who are much 
more involved in the program on a daily basis meet with their 
counterparts at Lockheed Martin regularly to make certain it is 
on track. I don't think there's another program that has more 
oversight than Sentinel from the inspector general, the 
Government Accountability Office (GAO), and Congress.
    I'm confident at this juncture that we are proceeding as we 
should be on this project, but I welcome the scrutiny and am 
happy to brief anyone on where we are to make certain that you 
also share that confidence that I have that we are on track.
    Senator Mikulski. Well, we understand from GAO that they 
say that Sentinel is on track and also on budget. So, it's on 
track in terms of its technology development, but we're also 
concerned that some of the most difficult parts lie ahead which 
is the conversion of case files from the old database to 
Sentinel.
    We just encourage you to really stand your continued 
vigilance on this because I think now we're also moving to some 
of the really tough parts and those that will determine the 
efficacy of its operation.
    Mr. Mueller. May I add one comment on that,----
    Senator Mikulski. Sure.
    Mr. Mueller [continuing]. Madam Chairwoman. We have been 
focused and rightfully so on Trilogy and also Sentinel, but 
since September 11th, we recognize the necessity of putting 
information relating to counterterrorism into a searchable 
database. In the wake of September 11th, we developed what was 
called the investigative data warehouse for our 
counterterrorism information. This database has been built up 
over time, and is a different database than that which had 
supported our case structure before. It is the latest in terms 
of technology and gives us the capability to connect the dots 
in the counterterrorism arena, similar to what we're moving to 
overall with Sentinel.
    So, we have not stood by waiting for the development of 
Sentinel but have put into place the mechanism a number of 
years ago to meet that shortfall.
    One last point on information technology, if I could. We 
have in the last year put out approximately 20,000 Blackberries 
to our agents, analysts, and others that enable us to be on the 
cutting edge of communication and capability to accomplish our 
mission.
    In the next year or so, we will be putting in almost 25,000 
UNeT computers, which is the Internet. As you know, we operate 
at the secret level but everybody should have Internet 
capability on their desk as opposed to having to go down to 
some other work station. We have already put in 12,000 those 
UNeT units. In 2008, we're going to put in another 14,000. By 
the end of 2009, everybody will have UNeT capability.
    Senator Mikulski. Well, I'm glad you brought all of that 
up. You know, when we think of the FBI, we think of agents, 
then we think of analysts, then we think of linguists. We don't 
think of the incredible support that we need to provide to our 
very talented and dedicated people who, I'll say, are in the 
street, whether that's Baghdad or Baltimore or whatever, but 
you need to have the kind of support staff, like I know you 
hired a chief information officer, and isn't that when we began 
to kind of right the ship on Sentinel and some others? Then 
that person needs to have the support.
    So, when we look at your appropriations, it's not only, you 
know, how many agents and do they have the guns and all of that 
is important, but you also need to have these other highly 
technical people to make sure that our agents, analysts, et 
cetera, are right resourced, isn't this right?
    Mr. Mueller. Absolutely. Since September 11th, we have had 
to put in place a chief information officer office and bring on 
board the talent and the capabilities to do that. We needed an 
architecture that would span the Bureau as a whole. We needed 
to develop a Government structure so that you identify and 
prioritize the particular projects that you're going to 
undertake as an organization.
    We've made substantial strides, but I will tell you we 
still have, we still have gaps that we need to fill in terms of 
providing the infrastructure, and the IT that the Bureau needs. 
We're working hard to fill those gaps, but I would be remiss if 
I thought that we were there. We've made a lot of strides but 
we've got a ways to go.

                          TERRORIST WATCH LIST

    Senator Mikulski. Which takes me to--I've got about two 
more questions--the terrorist watch list. The inspector general 
has identified concerns about the terrorist watch list and 
going back then to those dark days after 9/11 and the 9/11 
Commission, the Intel Committee's investigations, one of the 
things, issues that emerged was the efficacy of our watch 
lists, and according to the Department of Justice (DOJ) 
inspector general, he has identified serious flaws in the FBI 
terror watch list and also DOJ, Department of Justice, which 
means a real time lag in putting terrorists on the watch list 
and then also because of identical names or complexity, getting 
good people off of that watch list.
    Could you tell us your response to the inspectors general 
flashing yellow lights on this?
    Mr. Mueller. Let me start by saying that I believe the 
watch list is a success story. I believe it was 12 agencies who 
had separate watch lists. Since 2003 we have pulled together 
those 12 agencies and established a watch list procedure. A 
nomination process for international nominees come from the 
National Counterterrorism Center and domestic nominees come 
from the FBI.
    It has been successfully in operation, integrated with 
Border and Customs individuals, the State Department, as well 
as State and local law enforcement.
    The inspector general report did point out deficiencies in 
two areas and I will just single out those two areas. In the 
nomination process, the inspector general indicated that the 
FBI had established appropriate procedures for nominating, 
appropriate criteria for nominations, and appropriate quality 
controls.
    The inspector general did point out that we were not 
updating our watch list entries as fast as we should and there 
were field offices that had submitted incomplete and/or 
inaccurate information. The inspector general looked at a 
number of organizations, as well as ours, and pointed out those 
deficiencies.
    We have put into place software fixes and additional 
training to address these concerns. Of the 18 recommendations 
that the inspector general had, the FBI has closed 4 and we are 
waiting for another 12 to get approved from the inspector 
general.
    One last point I'd make on the other aspect that you 
mentioned, the redress issues relating to a watch list. 
Recommendation was made that we put together a multiagency 
working group to address that. In September 2007, put together 
and had signed off by each of the contributing agencies an 
memorandum of understanding (MOU) that would establish and did 
establish a redress officer in every one of the agencies and a 
unit in every one of the agencies to address that.
    There is still a backlog, but we have in place the 
mechanism that we need in my mind in each of the agencies to 
assure swifter redress so those persons who should not be on 
the watch list are taken off the watch list.
    As I said, of the 18 recommendations that the inspector 
general has made, 16 of those are on the verge of being 
completed and there are 2 that we're still working on.

                    FIGHTING CRIMES AGAINST CHILDREN

    Senator Mikulski. Well, thank you very much. I think with 
that, it gives us the assurance that, number 1, you take the 
inspector general concerns seriously and as we've talked about, 
both at this hearing and also in other conversations with you, 
that those issues that the inspector general did raise, that 
you, through your team, have addressed them. So, we do 
appreciate that.
    I just have one general area I'd like to come back to. You 
know, the crimes against children. It really took my breath 
away to hear about something called a joint task force on child 
prostitution, and I know Senator Shelby has just been a 
fantastic colleague and ally on issues related to trafficking, 
the child predator thing even in other parts of this 
appropriation, implementation of the Adam Walsh bill.
    We know that the FBI was given some time ago, even at the 
dawn of the Internet, the responsibility for dealing with child 
predators on the Internet.
    Could you just tell us what basically are you--are the 
programs you're responsible for the protection of children and 
do you feel that you need more support in this? Because I tell 
you, it just--you know, it seems that there's no end to how 
vile the world can be.
    Mr. Mueller. Well, this is a daunting problem. We could 
probably take all of our agents and still have work to do in 
terms of addressing the exploitation of children in a variety 
of horrific ways.
    I mentioned child prostitution, the task forces that we 
have addressing that. Human trafficking of persons, often 
children, is one aspect of that and you are knowledgeable about 
the FBI's Innocent Images Program which is where much of the 
work is initiated, particularly the international work is 
accomplished out of the task force up in Maryland.
    We currently have almost 270 agents who are working on 
Innocent Images cases. We have a total of 5,300 Innocent Images 
cases which are child pornography, the child predators on the 
Internet. We have on the international task force that we 
established in 2004, we have worked with 47 separate 
investigators from 21 different countries to address child 
pornography and child predators on the Internet.
    Senator Mikulski. Do they come to the Calverton facility 
for training?
    Mr. Mueller. Yes, they come to the Calverton facility and 
work on a task force shoulder to shoulder with the FBI.
    Senator Mikulski. Do they get training there, too?
    Mr. Mueller. Trained, and as we work together, we train 
together, then we work cases together. We recently had a case 
of a group of child predators on the Internet. We arrested 
persons in Australia, the United Kingdom, the United States, 
and other European countries. They had believed that they were 
free from the scrutiny of law enforcement by encrypting their 
files. They had something like 15,000 child pornographic files 
that had been encrypted. This case and it was emblematic of the 
work that we need to do internationally with our counterparts 
to address problems such as this.
    So internationally and domestically, we have put what 
resources we can to address a problem that is growing.
    Senator Mikulski. Well, we want to do all we can for you to 
be supported not only at the Calverton effort but in these task 
forces. You know, if you say to the American people, the 
taxpayer, I mean, they would want us to make this a priority.
    So, we have other questions, but we will submit them for 
the record.
    Senator Shelby, do you have any others?
    Senator Shelby. I have no further questions. I'm just glad 
to hear from the Director.
    Senator Mikulski. Yes, we're glad to hear from you, 
Director. We thank you for your candor and for your forthcoming 
in answering our questions, and we thank you and look forward 
to working with you as we put together both this 2009 
appropriation as well as the supplemental because some of the 
issues will be addressed there.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions, the Senators may submit 
additional questions, we ask for the FBI to respond within 30 
days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
                              bullet lead
    Question. More than four months ago, in a letter I sent to you that 
remains unanswered, I expressed my concerns that flawed bullet lead 
analysis done by the FBI for many years may have led to wrongful 
convictions. The National Academy of Sciences issued a report in 2005 
discrediting bullet lead analysis, and the FBI stopped conducting 
bullet lead testing that same year. Over the last two years, however, 
the Justice Department has not taken steps to find or correct the cases 
where it was misused. As a former judge, I am sure you share my fear 
that this faulty forensic evidence may have been introduced in the 
estimated 2,500 cases where it was used. In my letter in November, I 
asked you to provide the Judiciary Committee with the list of cases 
where FBI bullet lead analysis was used, and to advise the Committee 
what steps you've taken to correct any unjust convictions resulting 
from bullet lead analysis.
    Please state whether you have taken any action in response to my 
letter and explain your response.
    Answer. As is discussed in more detail in the response to your 
November 2007 letter to the Attorney General, in 2005 the FBI sent to 
the National District Attorney's Association, the National Association 
of Criminal Defense Lawyers, the Innocence Project, and approximately 
300 agencies letters outlining the FBI's decision to discontinue these 
examinations. The letters were sent so the recipients could take 
whatever steps they deemed appropriate to ensure no one was convicted 
based on inappropriate bullet lead testimony.
    The FBI has committed to review all testimony provided by FBI 
Laboratory personnel in bullet lead cases that resulted in convictions 
in order to determine whether they testified within the scope of the 
science. Because the FBI performed bullet lead examinations for 
approximately 40 years, we cannot readily produce a list of all cases 
in which bullet lead analysis was performed. Because FBI laboratory 
personnel who conducted bullet lead examinations also conducted other 
types of forensic tests, the FBI has to examine all files worked by the 
universe of examiners who conducted bullet lead analysis. That process 
is ongoing. As of mid-May 2008, the FBI had identified approximately 
1,270 cases (covering the period of 1975 to 2004) in which bullet lead 
analyses resulted in ``positive'' results that may possibly have formed 
the basis of trial testimony.
    As the FBI Director has testified, the FBI will be working with the 
Innocence Project (IP) to ensure all appropriate parties are notified. 
Specifically, as the FBI identifies cases in which bullet lead analysis 
was performed, we will provide to the IP the FBI file number, the names 
of the contributor and prosecutor and their contact information, 
contributor and prosecutor file numbers, the FBI Laboratory examiner's 
name, the defendant's name, and the FBI's assessment of the 
appropriateness of the testimony provided. The FBI will also offer the 
IP copies of the transcripts received from prosecutors. By providing a 
dual notification track (that is, notification to both the prosecutor 
and the IP), the FBI is confident that appropriate notification will 
made to any defendant who was or may have been adversely affected by 
inappropriate FBI bullet lead testimony.
    Question. When can I expect a response to my letter?
    Answer. DOJ is completing its response to the letter and will be 
transmitted to your office presently.
    Question. According to press accounts, the FBI agreed in November 
to provide a list of all cases where bullet lead analysis was used to 
the Innocence Project in order to begin working to identify cases where 
there may be problems.
    Please state whether you support this collaborative effort and 
explain your response.
    Answer. In an FBI press release on November 17, 2007, the FBI 
announced that it has undertaken an additional round of outreach, 
analysis, and review efforts concerning bullet lead analysis. This has 
included joint work with the Innocence Project, which has done legal 
research to identify criminal cases in which bullet lead analysis has 
been introduced at trial.
    The Department of Justice, including the FBI, takes this issue very 
seriously, and we are developing procedures to ensure that appropriate 
disclosures are made to the relevant parties. Thereafter, the parties 
involved can make an assessment of the effect of any potentially 
erroneous testimony.
    Question. Has anyone in the Justice Department taken any steps to 
support or oppose this agreement between the FBI and the Innocence 
Project?
    Answer. Please see the response to subpart a, above.
                          unanswered questions
    Question. As of May last year, the Justice Department reported to 
the Judiciary Committee that there was only one FBI agent assigned to 
Iraq and one assigned to Kuwait to investigate significant contracting 
fraud. Since May 2007, has the Justice Department assigned more full-
time FBI agents or other federal investigators to work on contracting 
fraud cases in Iraq and Afghanistan? If not, why not?
    Answer. The FBI currently has Special Agents (SAs) deployed in 
Iraq, Afghanistan, and Kuwait to provide full-time support to the 
International Contract Corruption Initiative, which addresses major 
fraud and corruption in the war and reconstruction efforts in Iraq and 
Afghanistan. These deployments are conducted in 120-day rotation cycles 
and SAs work jointly with the Defense Criminal Investigative Service, 
Army Criminal Investigation Command Major Procurement Fraud Unit, 
Special Inspector General for Iraq Reconstruction, and U.S. Agency for 
International Development, who also have agents deployed to address 
this crime problem. The FBI's overseas assignments in direct support of 
this multi-agency initiative are as follows: one SA in Kuwait; one 
Assistant Legal Attache and two SAs in Iraq; and two SAs in 
Afghanistan.
    Question. In November, I sent you a letter expressing my concerns 
that flawed bullet lead analysis done by the FBI for many years may 
have led to wrongful convictions. As you know, the National Academy of 
Sciences issued a report in 2005 discrediting bullet lead analysis, and 
the FBI stopped conducting bullet lead testing that same year. But over 
the last two years, the Justice Department has not taken steps to find 
or correct the cases where it was misused. As a former judge, I am sure 
you share my fear that this faulty forensic evidence may have been 
introduced in the estimated 2,500 cases where it was used. Two months 
ago, I asked you to provide the Judiciary Committee with the list of 
cases where FBI bullet lead analysis was used, and to advise the 
Committee what steps you've taken to correct any unjust convictions 
resulting from bullet lead analysis. When can I expect a response to my 
letter? Have you taken any action in response to my letter?
    Answer. Please see the response to Question 1, above.
    Question. According to press accounts, the FBI agreed in November 
to provide a list of where all bullet lead analysis was used to the 
Innocence Project in order to begin working to identify cases where 
there may be problems. Do you support this collaborative effort? Has 
anyone in the Justice Department taken any steps to support or oppose 
this agreement between the FBI and the Innocence Project?
    Answer. Please see the response to Question 2, above.
                                 ______
                                 
             Question Submitted by Senator Byron L. Dorgan
                         tribal justice funding
    Question. The Justice Department dedicated 102 Federal Bureau of 
Investigations agents to investigate violent crimes in Indian country 
in 1998. Congress provided funding for an additional 30 agents in 
fiscal year 1999, and an additional 27 agents in fiscal year 2005. As a 
result of these appropriations, there should be 159 FBI agents 
dedicated to violent crime in Indian country. However, there are only 
114 FBI agents dedicated to Indian country today. Can you please 
explain this discrepancy?
    Answer. As of June 2008, there are 104 FBI Special Agents working 
on Indian Country (IC) matters. Of this total, 30 were appropriated in 
fiscal year 1997, 30 in fiscal year 1999, and 10 in fiscal year 2005 
(the FBI's fiscal year 2005 appropriation included 27 positions, 10 of 
which were Special Agents). The remaining 34 Special Agents currently 
working IC matters have been assigned by their respective field offices 
to address specific IC issues.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                       pay and benefits overseas
    Question. What efforts has the Department of Justice taken to 
ensure retention of its best and brightest, particularly in the 
enforcement agencies out in the field and those agents and employees 
working outside the United States?
    Answer. While Department of Justice law enforcement officials 
working outside the United States may be eligible for certain 
additional pay or benefits based on the location, the retention 
incentives available to those employees are the same as the incentives 
available to those located in the United States.
    The FBI continues to use the authorities it received in the 2005 
Consolidated Appropriations Act, some of which expire at the end of 
2009, to better compete with private industry and improve attrition 
rates. These authorities include recruitment, relocation, and retention 
incentives, student loan repayment, and the University Education 
Program. Recruitment bonuses allow the FBI to competitively recruit 
employees who possess special qualifications for hard-to-fill FBI 
positions, relocation bonuses increase the number of employees 
interested in hard-to-fill positions within the FBI by, in effect, 
reducing the employee's relocation costs, and retention allowances are 
used to retain current employees who possess high-level or unique 
qualifications or who fill critical FBI needs. Retention allowances may 
be provided on either an individual or group basis to help the FBI 
retain certain employees or categories of employees, such as 
intelligence analysts and police officers.
    The FBI has also used education benefits to improve the quality and 
job satisfaction of our workforce. For example, in order to improve our 
recruitment and retention of Intelligence Analysts, the FBI repaid 359 
student loans for these employees in fiscal year 2007. The FBI has also 
used the University Education Program to fund tuition expenses for 
current employees seeking to obtain certifications and academic 
degrees, approving payments for 679 participants in fiscal year 2008.
    Question. Is danger pay provided to agents and DOJ employees 
actively working along the Southwest Border?
    Answer. The FBI's Legal Attache (Legat) office in Mexico maintains 
a presence in Mexico City, Guadalajara, and Monterrey, but does not 
maintain a permanent presence along the Southwest Border. Currently, 
neither FBI employees assigned to the Mexico City Legat nor those 
assigned in the United States near the Southwest Border are afforded 
danger pay. It is the FBI's understanding that DEA personnel working in 
Mexico have been eligible to receive a danger pay allowance of 15 
percent of basic pay since approximately 1991. In April 2008 the FBI's 
Mexico City Legat asked FBI Headquarters to consider affording danger 
pay to all FBI personnel in Mexico based on the hostile environment in 
Mexico, including threats from organized crime fugitives, rebels, and 
terrorist groups, as well as street and residential crimes. This 
request is under review.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This subcommittee stands in recess 
subject to the call of the Chair.
    Mr. Mueller. Thank you, Madam Chairwoman, Senator.
    [Whereupon, at 3:22 p.m., Wednesday, April 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
